<html>
<title> - THE PRESIDENT'S BUDGET REQUEST FOR THE DEPARTMENT OF ENERGY FOR FISCAL YEAR 2021</title>
<body><pre>[Senate Hearing 116-365]
[From the U.S. Government Publishing Office]


                                                   S. Hrg. 116-365

                   THE PRESIDENT'S BUDGET REQUEST FOR
                      THE DEPARTMENT OF ENERGY FOR
                            FISCAL YEAR 2021

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 3, 2020

                               __________

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                       Printed for the use of the
               Committee on Energy and Natural Resources

        Available via the World Wide Web: http://www.govinfo.gov
        
                              __________

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
40-911                     WASHINGTON : 2021                     
          
-----------------------------------------------------------------------------------           
        
        
        
               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                    LISA MURKOWSKI, Alaska, Chairman
JOHN BARRASSO, Wyoming               JOE MANCHIN III, West Virginia
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       MARIA CANTWELL, Washington
STEVE DAINES, Montana                BERNARD SANDERS, Vermont
BILL CASSIDY, Louisiana              DEBBIE STABENOW, Michigan
CORY GARDNER, Colorado               MARTIN HEINRICH, New Mexico
CINDY HYDE-SMITH, Mississippi        MAZIE K. HIRONO, Hawaii
MARTHA McSALLY, Arizona              ANGUS S. KING, JR., Maine
LAMAR ALEXANDER, Tennessee           CATHERINE CORTEZ MASTO, Nevada
JOHN HOEVEN, North Dakota

                      Brian Hughes, Staff Director
                     Kellie Donnelly, Chief Counsel
            Brianne Miller, Deputy Staff Director for Energy
                 Renae Black, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
            Brie Van Cleve, Democratic Senior Energy Advisor
                            
                            
                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Murkowski, Hon. Lisa, Chairman and a U.S. Senator from Alaska....     1
Manchin III, Hon. Joe, Ranking Member and a U.S. Senator from 
  West Virginia..................................................     2

                                WITNESS

Brouillette, Hon. Dan, Secretary of Energy.......................     4

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

Brouillette, Hon. Dan:
    Opening Statement............................................     4
    Written Testimony............................................     7
    Responses to Questions for the Record........................    61
Cantwell, Hon. Maria:
    Memorandum for William I. White dated 9/19/19 regarding 
      ``Fiscal Year 2021 Environmental Management Compliance 
      Budget Submittal for the Office of River Protection'' 
      (BUD:SPO/19-BUD-0108)......................................    45
    Memorandum for William I. White dated 9/19/19 regarding 
      ``Fiscal Year 2021 Environmental Management Compliance 
      Budget Submittal for the Richland Operations Office'' 
      (BUD:SPO/19-BUD-0097)......................................    47
Manchin III, Hon. Joe:
    Opening Statement............................................     2
    GAO Report entitled ``DOE Energy Spending by Program, Fiscal 
      Years (FY) 2015 through 2019''.............................    27
Murkowski, Hon. Lisa:
    Opening Statement............................................     1

 
THE PRESIDENT'S BUDGET REQUEST FOR THE DEPARTMENT OF ENERGY FOR FISCAL 
                               YEAR 2021

                              ----------                              


                         TUESDAY, MARCH 3, 2020

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:55 a.m. in Room 
SD-366, Dirksen Senate Office Building, Hon. Lisa Murkowski, 
Chairman of the Committee, presiding.

           OPENING STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    The Chairman. Today we will take up the President's Fiscal 
Year 2021 budget request for the Department of Energy (DOE). 
Secretary Brouillette, welcome back to the Committee. This is 
our chance to focus on some of the areas that we, as a 
Committee, consider to be important priorities here.
    As you know, we have an energy bill that is before us on 
the floor that, as I look to many of the priorities that we 
have outlined as they relate to innovation and security--
cybersecurity, grid security, modernization, workforce--of 
course, all that happens in the innovation space, you are it. 
You and your team at DOE will be the men and women that are 
really helping to move this country forward to that next best 
step, that paydown on climate change, as Senator Manchin says, 
but this is really about how we can take the views and visions 
and translate them through the budget process in your 
department.
    The Department's request focuses on a number of key 
challenges that cut across the agency, including grid 
modernization, energy storage and plastics innovation. I am 
particularly interested in DOE's new critical minerals 
initiative which will bring the Office of Science and the 
Applied Energy Offices together to help rebuild a stable, 
sustainable supply chain in the United States.
    I have long sounded the alarm about our nation's dependence 
on foreign minerals. According to the U.S. Geological Survey 
(USGS), the U.S. imports more than 50 percent of its supply of 
46 different minerals, including 100 percent of 17 of them. If 
our goal of leading the world on emerging technologies such as 
energy storage and electric vehicles is to be realized, then 
that has to change. We can't surrender the front end of the 
supply chain and hope to somehow recover the rest. I am glad to 
see the Department utilizing so many of its assets to address 
this problem.
    Now even as I welcome new cross-cutting programs, I am 
disappointed the President, again, proposes to eliminate or 
deeply cut funding for innovation-focused programs at DOE. This 
is where we really need you to lean in, so these reductions are 
discouraging. For the last three years Congress has rejected 
the request to eliminate successful programs like ARPA-E and 
reduced funding for the Office of Energy Efficiency and 
Renewable Energy. I have not checked with any of my colleagues 
here this morning, but I can pretty much bet that everyone is 
going to encourage you that ARPA-E and what happens at ARPA-E 
is important to this country, important for the world and, 
certainly, we are going to encourage you to look again at that 
budget.
    It is critical that we maintain our commitment to energy 
research and development. Doing so will help keep energy 
affordable, strengthen our national security and help us 
address environmental challenges such as climate change. We 
only have to look at the global nuclear energy market to see 
what happens when U.S. influence wanes. Other countries step 
right up. They are eager to fill the void and establish energy-
fueled economic relationships that can span generations, so we 
don't want to leave that space for them to take it over.
    The Administration's proposed cuts to many of these R&D 
programs, I think, are cause for concern. New, potentially 
breakthrough technologies are being developed in our national 
labs and our universities. We must ensure that our research 
programs are adequately funded so that those technologies can 
be realized, moved to the market and exported to the world.
    I would also remind everyone listening this morning that 
energy R&D is hardly the driver of our federal deficits. In 
recent years it has accounted for less than 0.1 percent of 
federal outlays and yet, even at that level, it still delivers 
significant, significant, benefits for our nation.
    A lot more to be discussed here this morning, but I am 
pleased that you are with us here today, Secretary Brouillette, 
to talk about the President's priorities and what we can be 
doing together.
    With that, I turn to my Ranking Member, Senator Manchin.

              STATEMENT OF HON. JOE MANCHIN III, 
                U.S. SENATOR FROM WEST VIRGINIA

    Senator Manchin. Thank you, Madam Chairman, and thank you, 
Secretary Brouillette. It is a pleasure to welcome you to your 
first budget hearing before this Committee as the Secretary of 
Energy.
    Secretary Brouillette, I want to take the opportunity to 
thank you and your team at DOE for your technical assistance 
and analysis on many pieces of our energy package that Senator 
Murkowski and I released this last week. A comprehensive energy 
bill has not been enacted since 2007, so I think that we can 
all agree that it is high time Congress updated the nation's 
energy policies. 2007 was the same year that the iPhone was 
first released, and what I find unbelievable is that in 13 
years the iPhone has progressed through at least 10 different 
models in order to modernize and keep up in a world that is 
constantly evolving, yet we have not been able to do the same 
for many of the energy policies in our country. That is why I 
am pleased that the Senate will vote today to proceed to 
another vehicle for the comprehensive energy innovation package 
that Chair Murkowski and I introduced last week, the American 
Energy Innovation Act. This legislation is a result of strong 
bipartisan work with my colleagues on this Committee to make a 
down payment on emissions-reducing technologies, reassert the 
United States leadership role in global markets and enhance our 
grid security and protect consumers. Importantly, this bill 
will connect energy-producing communities in states like West 
Virginia and Alaska with new markets and job opportunities 
while laying the groundwork for the Department of Energy to 
advance innovative energy technologies. We know how important 
it is that we are on the cutting edge of energy innovation 
which is why our bill sets a game plan for strong R&D at the 
DOE.
    Unfortunately, based on the President's budget request this 
year, this Administration doesn't appear to be on the same page 
as we are as evidenced by the proposal to make drastic cuts to 
the Department's Offices of Science, Energy Efficiency and 
Renewable Energy and Nuclear Energy as well as eliminating 
critical programs like the Advanced Research Projects Agency-
Energy, or ARPA-E. I was also disappointed to see that once 
again the budget eliminated the Weatherization Assistance 
Program and the State Energy Program which helps so many of us 
and our people in our states.
    These programs are popular on both sides of the aisle, 
because they provide critical assistance to states to deploy 
energy projects and help low income homeowners weatherize their 
homes and save money on their energy bills. In my little state 
alone, we received over $3 million per year from the 
Weatherization Assistance Program and over $500,000 annually 
from the State Energy Program.
    We are proud to host one of the crown jewels of the 
Department of Energy in West Virginia, which is NETL, the 
National Energy Technology Laboratory. I was disappointed again 
to learn the overall funding for NETL was cut by 40 percent and 
direct NETL funding within the Fossil Energy and R&D decreased 
by 7 percent. In the middle of an energy transition in the face 
of a changing climate, this is not the time to starve NETL, our 
national lab with the deepest knowledge of fossil energy. I 
will continue to fight to ensure NETL has the resources it 
needs to lead the charge in innovation to make fossil fuels 
more efficient, less carbon intensive and to be on the cutting 
edge of fossil energy research and continue its proud legacy in 
Morgantown for years to come and not only help the United 
States but to help all those in the world.
    It was also disheartening to see that the request called 
for a 43 percent decrease in the Carbon Capture, Utilization 
and Storage (CCUS) budget. We need more resources, not less, to 
make sure that CCUS can be deployed at scale. The EFFECT Act, 
which I introduced with many of my colleagues, is a key piece 
of the American Energy Innovation Act and will provide the 
investments needed to advance CCUS. Fossil energy is going to 
be part of our national and global energy mix for years to 
come, so we need to make sure that we have the technologies to 
use it in the cleanest fashion possible. This will create jobs 
and lower our carbon footprint. It is a win/win across the 
board.
    On the topic of nuclear energy, the Administration has 
recently shifted its nuclear waste repository strategy with the 
President calling for innovative approaches and lasting 
solutions to remedy the current policy deadline. I believe this 
shift raises the importance of Chairwoman Murkowski's Nuclear 
Waste Administration Act which would provide an innovative 
bottom/up approach to setting and constructing a nuclear waste 
repository. It is a bill that, I believe, with the changes that 
Senator Cortez Masto and I worked on together, provides an 
equitable policy path forward for site selection. If we are to 
support the advancement of new nuclear energy technologies, we 
have a responsibility to develop effective policy to dispose of 
our nuclear waste.
    With that, Secretary Brouillette, thank you for joining us 
today and for all you do at DOE and for our country. I look 
forward to hearing from you.
    The Chairman. Thank you, Senator.
    At this time, Secretary Brouillette, you are, again, 
welcomed to the Committee. We appreciate the opportunity to 
have this discussion with regards to the President's request 
and would invite your comments.

              STATEMENT OF HON. DAN BROUILLETTE, 
                      SECRETARY OF ENERGY

    Secretary Brouillette. Thank you, Chairwoman Murkowski and 
Ranking Member Manchin and all of the members of the Committee 
who are here today. It's an honor to appear before you as the 
Secretary of Energy to discuss President Trump's Fiscal Year 
2021 budget request for the U.S. Department of Energy.
    The members of this Committee on both sides of the aisle 
have been strong partners to the Department over the past three 
years, and I want to thank you again for your support during my 
confirmation process to become the 15th Secretary of Energy. 
I'm grateful for the support that you gave me as the Deputy 
Secretary, and it's a privilege to appear before you today as 
the Secretary of Energy.
    My interest in the national security work of the Department 
began as a tank commander, my service as a tank commander, 
United States Army, back during the days of the Cold War. I 
served in Fulda, Germany, which was then known as the Furthest 
Frontier of Freedom. Also, my time on the Hill working in a 
Member's personal office and later as Chief of Staff to the 
House Energy and Commerce Committee furthered my passion for 
the mission of DOE. Having also led the Department's 
Congressional Affairs Office and as Deputy Secretary, I am 
humbled and I look forward to continuing to work closely with 
each of you in my new role.
    The President's FY21 budget request promotes energy 
independence. It advances scientific research, it strengthens 
U.S. energy security, and it enhances the protection of our 
nation's security. The budget request supports the development 
of reliable and affordable energy with strategic investments in 
research and development, critical infrastructure and 
crosscutting initiatives such as energy storage, including the 
next generation of batteries that integrate renewable energy 
better into the grid.
    In 2020, for the first time in my lifetime, the United 
States will be a net energy exporter and the world's number one 
producer of oil and gas. Notably, the United States is also the 
world's second highest generator of wind and solar energy and 
the world leader in carbon emission reductions. I'm confident 
that the initiatives in this budget will advance and extend 
these gains for years to come.
    The Trump Administration believes that it is imperative 
that America maintain dominance in science and technology, 
especially with global competitors like China racing to surpass 
us in critical scientific capabilities. That's the underpinning 
of this year's budget request of $5.9 billion for scientific 
innovation all across the DOE complex. The request also 
supports substantial investment in areas the President has 
designated as industries of the future, including 
supercomputing, artificial intelligence, quantum and advanced 
manufacturing. The budget request again prioritizes the 
development of next generation advanced nuclear technology. As 
we strive to regain American leadership in nuclear energy, this 
Administration realizes the need for domestically-produced 
uranium and, in doing so, the budget request includes $150 
million for a new DOE program for a strategic stockpile of U.S. 
origin uranium to protect against market uncertainties. 
Recognizing the value of American nuclear energy and nuclear 
security interests, this is the first step of a soon to be 
released broader strategy endorsed by the President's Nuclear 
Fuel Working Group.
    The budget requests nearly $27 billion to support DOE's 
mission component for national security. Given the current 
geopolitical environment, the United States must have the 
nuclear capabilities to meet current and future nuclear 
security challenges, and key to this effort is sustaining the 
current stockpile of nuclear weapons, modernizing our nuclear 
forces, furthering non-proliferation and recapitalizing 
infrastructure. The request also funds continuation for cleanup 
of sites associated with nuclear weapons development and 
production and government-sponsored nuclear energy research. 
The Administration believes progress on managing the nation's 
spent nuclear fuel is critical and that the standstill has gone 
on for far too long. Notably, the FY21 budget does not request 
funding for Yucca Mountain licensing. Instead, we seek to 
prioritize research, development and the evaluation of 
alternative technologies and pathways for the storage, 
transportation and disposal of the nation's spent nuclear fuel.
    The men and women that I have the privilege to lead are 
extremely dedicated to DOE's mission. Working with Congress and 
our industry partners, I'm very proud of the Department's 
accomplishments over the last three years to advance American 
energy, to promote scientific innovation and to protect 
America. The results are significant for the United States as a 
nation and for taxpayers.
    I also commend the members of this Committee for your 
continued leadership on putting forward energy solutions that 
will benefit all Americans. We are very encouraged by the 
bipartisan and comprehensive legislation, the American Energy 
Innovation Act. The Department stands ready to work with you 
and the rest of the Senate as you consider the legislation this 
week and with Congress in the months to come.
    Finally, I want to thank the Senate for the strong support 
of the FY20 appropriation and the full year appropriation for 
2019. The certainty that that has provided the Department is 
appreciated, and we're seeking that same certainty again this 
year. I look forward to working with each of you and to that 
end, thank you and I look forward to answering your questions.
    [The prepared statement of Secretary Brouillette follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Mr. Secretary, and we will 
certainly take you up on the offer to work with you as we work 
to advance the American Energy Innovation Act through the full 
Senate and the House and hopefully for signature soon by the 
President.
    I want to join my colleague, Senator Manchin, in 
referencing a couple of the programs that are, once again, 
eliminated from the President's budget request. I mentioned 
ARPA-E. He reinforced that. He mentioned weatherization. That 
is, again, something that enjoys strong bipartisan support 
across this body--the State Energy Program. So as you listen to 
some of the comments around here, I hope a part of your 
takeaway will be that there are many of these programs that are 
very key, very critical to our states and we will work hard to 
ensure that they are appropriately funded.
    I want to speak first on a couple of more local issues, 
although I don't ever consider the Arctic to be local. I am 
pleased that you have had an opportunity to visit the U.S. 
Arctic as you have traveled to Alaska a couple times now. You 
have seen some of the innovation that we are advancing there 
whether it is the good work of the Cold Climate Housing 
Research Center, the innovation, the geothermal innovation and 
really all the innovation that goes on at Chena Hot Springs.
    We have talked several times, many times, about the Arctic 
Energy Office and during your confirmation hearing you 
indicated that DOE is prepared to reopen that office but the 
President's budget is silent on that. Can you give me some kind 
of a status?
    Secretary Brouillette. Sure, Madam Chairman, I will, and 
thank you again for the opportunity to visit Alaska. I'm happy 
to report that my grow tower is doing fine.
    The Chairman. I harvested kale last night from mine.
    [Laughter.]
    Secretary Brouillette. I hope that you will also pass my 
best regards to the good folks in Chena Hot Springs. It was a 
great opportunity for me to see some of the renewable 
technologies that are so innovative and, frankly, heartening to 
see all across Alaska but the rest of the country as well.
    With regard to the Arctic Office, I did give you a 
commitment that we would expand that office. We are doing 
exactly that. While you may not see the numbers that you wish 
to see in the President's budget, I want to assure you that we 
are looking internally at the Department of Energy. We do have 
the authorities to organize the Department under the DOE 
Organizational Act in the manner in which the Secretary deems 
appropriate. In this case, I have deemed it appropriate that we 
will expand the office. We're going to have three to five 
people. We're working very closely with the University of 
Alaska at Fairbanks. We are looking for office space that, 
perhaps, they will be willing to share with us. We are about 90 
days away from making these decisions and having these things 
operational.
    The Chairman. Very good, I appreciate that update and I am 
encouraged by that. I know there is very strong interest up 
North and particularly there at the University.
    Keeping on the issue of the North and the Arctic, I really 
appreciated the visit from the Assistant Secretary, Ted 
Garrish, when he attended the Arctic Circle Assembly in 
Reykjavik last year highlighting the Arctic energy initiatives. 
Having U.S. representation at that level was noted. It was 
appreciated, and it is something that I would hope that we are 
going to be able to encourage.
    There is a great deal I think that we can contribute, the 
United States can contribute, in these international forums 
when we are talking about the Arctic, innovation that goes on 
and working with our global partners. Can you tell me how this 
budget request advances the United States' Arctic energy 
initiatives and our role in the region? This is a question that 
I ask every Secretary as they are presenting the President's 
budget, but I want to make sure that the Administration is 
fully keyed in on our role as an Arctic nation.
    Secretary Brouillette. Sure, Madam Chair, I appreciate the 
question.
    I think, you know, the first step as we just discussed is 
to open up the Arctic Office at the U.S. Department of Energy. 
We're going to have that completed for you in approximately 90 
days. The other things that we are considering, I mean, you 
just mentioned very important international events. I'm aware 
that there is a geothermal event that will occur later this 
year. I will assure you that if I am not there personally, we 
will have high level representation of the United States 
Government, either from the U.S. Department of Energy or the 
U.S. Department of State. Those are key events for us. They 
allow us to not only collaborate with our colleagues from 
around the world, they allow us to plan. And I intend to use 
those types of events and those types of collaborations to not 
only establish next year's budget, but to reorganize some of 
the research and development that's being done currently within 
the Department itself. So you have my assurance of that. You 
have my commitment for that. We look forward to working with 
you all throughout the year on these types of events.
    The Chairman. Well, I appreciate that and I would like to 
follow up with you with more specifics as they are Arctic 
related. I know that the Cold Climate Housing Research Center 
is in discussions with our national lab. I know that there are, 
again, many issues associated with the impacts of climate 
change that we are seeing in Alaska that DOE can be engaged 
with us on.
    Secretary Brouillette. So----
    The Chairman. There is a lot, a lot of room to work 
together.
    Secretary Brouillette. Sure, there certainly is. And if 
you'll allow me one quick minute, I will elaborate just a 
little further on some of the technologies.
    I mentioned the Nuclear Fuel Working Group, for instance.
    The Chairman. Right.
    Secretary Brouillette. What we're trying to do with that 
working group is to establish a more robust front end of the 
nuclear cycle. We have to put America back in a leadership 
position with regard to nuclear technologies. Last year we 
began a process and a program, a pilot program, at the 
Department of Energy to create high-assay LEU fuels, HALEU 
fuels. That is an important component to developing 
microreactors, and we're going to push forward through that in 
2020 and into 2021. We're going to work closely with our 
colleagues at DoD who have expressed an interest in these types 
of reactors.
    The perfect deployment for that type of technology is in a 
remote, rural location such as what you and I saw all 
throughout your beautiful state. Those are types of activities 
we think are important, not only for the Arctic but the rest of 
the world and the rest of the United States certainly, so we're 
going to continue that type of activity.
    We're also going to continue our R&D work in solar, in wind 
and other renewable technologies which are key to some of 
these, again, rural and remote areas.
    So I assure you, we're going to continue that work 
regardless of the numbers you see here in this budget.
    The Chairman. Thank you.
    Senator Manchin.
    Senator Manchin. Thank you, Madam Chairman.
    Mr. Secretary, last year I requested the GAO, the 
Government Accounting Office, to look into the Department's 
goals for technology readiness, commercialization and 
deployment. The GAO found that a few offices were not meeting 
the mark on getting funds out the door. I think we have sent 
you the report. I am going to submit the GAO's report for the 
record.
    As examples, although nuclear energy obligated 
approximately 90 percent of appropriated funds each year, even 
though they have done that at a high rate, 90 percent, the 
President's request is cutting back nuclear which you just 
spoke about, 25.5 percent which would be unacceptable if we are 
going to go to decarbonized the way we want to.
    Fossil energy obligated just over three-quarters of its 
funds in the past three years, and the Title 17 Loan Program 
obligated just eight percent, eight percent, in Fiscal Year 
2018 and only 40 percent in Fiscal Year 2019. So, with consent, 
I want to go ahead and submit this.
    The Chairman. That will----[off mic]
    [GAO report follows.]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Manchin. I think your office has this. If you 
don't, we will make sure you get it.
    So, if you want to continue, if you want to discuss the 
trends there. Let me go a little bit more in detail on that. 
The DOE's Title 17 Loan Program provides a significant 
opportunity for high-impact, energy-related ventures to receive 
the support and financial backing of the Federal Government. It 
helps commercialize advanced energy technologies that private 
lenders cannot or will not support and all the while has 
maintained a default rate that is lower than most conventional 
banks and has made over $2 billion in interest payments to the 
Treasury. Most importantly, there are billions of dollars in 
unused loan authority that you have now at the DOE that could 
use the help to build the next generation of energy 
infrastructure.
    I understand the Loan Program Office has enhanced the 
preapplication and consultation process to better prepare 
prospective applicants to submit successful applications and 
reduce their application cost. There has to be a reason why 
there is such a low amount going out the door. Either it is so 
cumbersome or, basically, they need some help and assistance. I 
think you are moving in that direction. I hope so. But the 
President, again, has recommended wiping out the Title 17 
Program which has the greatest opportunity to help us for the 
21st century energy needs. So if you can report on that, what 
you are doing, what you intend to do as we have to restructure 
this budget request the President put in.
    Secretary Brouillette. Senator, thank you. I will elaborate 
just a bit.
    As you and I discussed privately yesterday, I'm very 
familiar with the loan program having been a young staffer on 
the Hill many, many years ago, which seems like five lifetimes 
ago, who saw some of the earliest drafts of this particular 
program and saw it become law in 2005. So I was happy to see 
that.
    With regard to the structure of the program itself, one of 
the things I've noticed, 15 years later having spent a lot of 
time in the financial services industry with USAA, was it 
appears to me that we have some requirements in place that may 
slow down the process to your point. And what I mean, 
specifically by that, is that I've asked for a formal review, 
for instance, of the equity requirements of this program. I 
don't know that they're inappropriate, but I can't be assured 
that they're appropriate either. And what I've asked our Loan 
Program Office to do is to completely review those roles and 
requirements to simply ensure that we're not putting artificial 
blocks in the way of loans being made through the program.
    I would be happy to come back and brief you more formally 
and in a more detailed fashion, but you have my assurance that 
we have begun the process to look at these rules and 
regulations within the program.
    Senator Manchin. The only thing I would ask, but I would 
also recommend too, is that you use the GAO. We use the GAO to 
find out who is efficient, who is not efficient, if they are 
completing the task in legislation that we have passed, a task 
that we have asked every agency to take on. I would think 
coming in, in your new role right now, it might be good to have 
an outside entity looking in to see where your efficiencies are 
or deficiencies are and how you can improve that. They are 
quite skilled at what they do. They give us a good look at what 
we can do and improve upon.
    So I would recommend anything you can do using GAO reports 
basically. We have given you the one that we asked for last 
year. If you could get one to update that, if not, we will do 
it for you, but I think if you do it for yourself, it might be 
a little bit better.
    Thank you.
    Thank you, Madam Chairman.
    Secretary Brouillette. Yes, sir.
    The Chairman. Senator Hoeven.
    Senator Hoeven. Thank you, Madam Chairman.
    Mr. Secretary, thanks for being here today. We appreciate 
it very much.
    Secretary Brouillette. Thank you, sir.
    Senator Hoeven. I am very concerned that we have adequate 
baseload power on the grid so that we don't have blackouts or 
brownouts. So my question is, do you agree that early closure 
of critical baseload assets including our coal-fired electric 
plants will have an impact on reliability and do you share my 
concern about the early closure of critical baseload assets and 
resulting impacts on reliability, including the potential for 
blackouts and brownouts, if we don't have adequate baseload?
    Secretary Brouillette. I do, Senator. I do share your 
concern. It's one of the reasons why we've established at the 
Department what we refer to as the North American Energy 
Resiliency Model, or NAERM model. What that allows us to do is 
to see in near real time the impacts of the loss of baseload 
power and in certain cases, renewable power, all throughout the 
grid. As you and I have discussed in the past, we're not yet at 
the point where we can rely entirely upon renewable power. It 
is critical that we maintain our baseload facilities all 
throughout the country, and that includes not only coal but 
natural gas and nuclear as well.
    So we share the concern. We think it's a real concern. We 
do not think in any way that it inhibits our goals toward 
increased battery storage. We've talked about that in the past 
as well. Our view on grid-scale battery storage, for instance, 
is that it's good, not only for the provision or eliminating, 
you know, in certain cases, the intermittency of renewable 
power. This type of battery storage is also important for the 
providers of baseload electricity as well. If a nuclear 
institution or a coal facility or a natural gas facility goes 
offline, perhaps due to, for instance, a cyberattack, battery 
storage, grid-scale battery storage can allow us to cover 
whatever gaps may occur as a result of that type of attack.
    So I think the fundamental point is that yes, baseload is 
key. We must maintain it. And we cannot afford to lose some of 
these facilities at the rate at which we have been losing them 
over the course of the last four to five years.
    Senator Hoeven. Does that include making sure electric 
markets better value capacity provided by baseload power, 
particularly during instances where there may be a shortage or, 
as you say, an issue with intermittent power?
    Secretary Brouillette. I think it does. Each of these 
facilities brings certain values to the marketplace, and I 
think it's incumbent upon the regulators to regulate or to 
recognize the value that they do bring.
    Senator Hoeven. 45Q. We passed legislation in 2018 to 
provide a tax credit for capturing carbon and sequestering it. 
Now Treasury is working through the regulations. They have 
gotten through a lot of it, but we need to get that finished 
up. We have projects ready to go. For example, you are familiar 
with Basin Electric in our part of the country?
    Secretary Brouillette. I am.
    Senator Hoeven. There is a coal gasification plant. They 
already capture half their CO<INF>2</INF> to put it down a hole 
for EOR. They will capture the rest of it and put it down a 
hole for geologic storage but it is very important that the 
definition, as Treasury finishes these regulations, that A, 
they get it done, and B, they get it right.
    So tell me, do you support and will you assist in terms of 
making that case to Treasury, that that definition of carbon 
capture equipment needs to be broad enough and done right so 
that we have plants in addition to power plants, like the coal 
gasification plants and ethanol plants? We have an ethanol 
plant that will do the same thing, Red Trail Ethanol. Of 
course, you have been out and we want you to come back and see 
them, but these projects will start right away if we get this 
reg right. Will you commit to help doing it?
    Secretary Brouillette. You have my commitment to do that. 
We do support it. We do want to see these rules finalized. I 
have had numerous conversations with my colleagues over at the 
Treasury Department. We were pleased to see just recently, the 
preliminary guidance coming out of the IRS. I will continue to 
urge Secretary Mnuchin, the IRS and others at the Treasury 
Department to complete the process. It's very, very important--
--
    Senator Hoeven. Yes, I mean----
    Secretary Brouillette. ----that the industry have a clear, 
certain signal.
    Senator Hoeven. Excuse me, thank you, Secretary, I 
appreciate it.
    Secretary Brouillette. Sure.
    Senator Hoeven. Also, same thing with Project Tundra. 
Again, here is a power plant project that wants to do the same 
thing. You are familiar with it. Your commitment to help them?
    Secretary Brouillette. Sure.
    Senator Hoeven. This is a state/federal DOE private company 
partnership, latest, greatest technology. Your continued 
support?
    Secretary Brouillette. Yes, you have that.
    Senator Hoeven. Also, with the Energy & Environmental 
Research Center, the cooperative agreement, extremely 
important. Your commitment to continue that support? Again, 
part of doing this new technology, once we deploy it, there 
will be other adopters around this country and overseas that 
are going to not only make sure we get that dependable 
electricity, baseload electricity, but with carbon capture.
    Secretary Brouillette. Complete agreement, sir.
    Senator Hoeven. Let me switch gears for just a minute. You 
touched on it earlier, but commitment to support the national 
labs and DOE's effort to upgrade our nuclear force as part of 
making sure that our triad continues to be the effective 
deterrent it is and that we are technologically the most 
advanced so that we can continue to hold that very important 
defense advantage over our adversaries for the safety of our 
country.
    Secretary Brouillette. Absolutely important point. You'll 
notice that the President's budget includes a significant 
increase in the weapons program at NNSA. We have put together a 
program that we think modernizes the nuclear triad--our 
component of that program, in particular. It's very important 
that we focus on the infrastructure in NNSA and upgrade some of 
the facilities that are now approaching 60 and 70 years old. 
It's time for us to renew this, redo this entire 
infrastructure.
    Senator Hoeven. Thank you, Mr. Secretary. I appreciate it.
    The Chairman. Thank you, Senator Hoeven.
    Senator Cortez Masto.
    Senator Cortez Masto. Thank you, Mr. Secretary, I 
appreciate you appearing today. And let me just say this, I 
appreciate your opening comments about the Administration not 
seeking funding for permanent storage at Yucca Mountain. In 
fact, if I----
    Senator King. You had her at that comment.
    Senator Cortez Masto. That is right.
    [Laughter.]
    I am going to lead with that comment. The President said 
that he will respect the voices of Nevadans and look for 
alternative nuclear waste storage solutions rather than 
continue to force the unsafe and unworkable Yucca Mountain 
project. However, last month when testifying before the House 
Energy Subcommittee, the Under Secretary of Energy, Mark 
Menezes?
    Secretary Brouillette. Menezes.
    Senator Cortez Masto. Menezes indicated that the interim 
storage program and the funding requested for that program in 
the Department's Fiscal Year 2021 budget is and I quote, ``To 
put together a process that will give us a path to permanent 
storage at Yucca Mountain.'' So who are Nevadans to believe and 
can you clarify that statement? Are we to believe the President 
and the budget that he has put forward and he is willing to 
look for alternative solutions or are you still working toward 
a pathway to some sort of permanent storage at Yucca Mountain?
    Secretary Brouillette. On the last part of your question, 
we are not working toward a pathway as a final repository at 
Yucca Mountain. So let me take a step back and perhaps clarify 
the remarks made by the Under Secretary.
    It's my understanding in his testimony that he was quoting 
the law which is the Nuclear Waste Policy Act, and under that 
law it states very clearly that Yucca Mountain will be the 
final repository. That being said, however, because of the work 
of the Appropriations Committee, it is also the law of the land 
that we cannot spend money that has not been appropriated and 
there have been zero funds appropriated for Yucca Mountain. 
That stalemate is largely the result of the voices here in 
Congress, the voices of the people of Nevada and we have 
reached the point where the President has decided that we will 
not pursue this over the objections of the people of Nevada.
    So I want to state clearly for the record, the 
Administration will not pursue Yucca Mountain as a final 
repository.
    Senator Cortez Masto. So, as Congress is the appropriators 
and say, for instance, and I hope this doesn't happen, but 
there are funds appropriated to continue down this path and put 
into this budget line item, would the Administration still not 
pursue permanent storage?
    Secretary Brouillette. We will follow the law, obviously, 
but it's our intent to look for alternatives to Yucca Mountain. 
It's our intent to begin a process and that's why we've 
requested $27.5 million in the budget to do a few things. One 
is to maintain our fiduciary obligation to the people of Nevada 
and maintain the site. It is still a federal site, so we have 
to have guns, gates and guards, if you will, to maintain the 
proper security around the facility. But we would also propose 
that we be allowed to use that $27.5 million to look at 
research and development that might lead to alternatives to 
that final repository at Yucca Mountain. So that's our intent.
    Senator Cortez Masto. So if we were to work here in 
Congress and as Ranking Member Manchin said, and I have been 
talking both with he and the Chairwoman, to pursue consent-
based siting language that treats Nevada equally and fairly 
along with all the other states, would you and/or the 
Administration oppose or support that?
    Secretary Brouillette. Well, we would have to see the, you 
know, the work that's being done, obviously, but I can give you 
a commitment that we will work toward that end. That is the 
intent of the President's comments that he's made publicly. 
It's the intent of the U.S. Department of Energy. We will 
certainly work with the Congress. We will also work with 
policymakers at both the state and local level to find an 
appropriate ultimate solution for the spent fuel.
    Senator Cortez Masto. I guess my question would be more 
specific. When you say you would work toward that solution, the 
consent-based siting looks toward treating Nevada equally like 
other states, and what we are looking to do is give the states 
a say and a voice in this process, including all the 
stakeholders. Is that something that you would oppose or 
support?
    Secretary Brouillette. Sure. We would certainly support 
that type of process, yes.
    Senator Cortez Masto. Okay, thank you.
    And then, if we were to consider a repeal of the 1987 
amendment that designated Yucca Mountain as the nation's sole 
nuclear waste repository, would you oppose or support that?
    Secretary Brouillette. Oh, I'd have to reserve judgment and 
see exactly what you're doing but, you know, I'll go back to 
what I said earlier, we are not going to pursue Yucca Mountain 
as a final repository.
    Senator Cortez Masto. And the alternative solutions, can I 
ask that Nevada be a part of that discussion and have an 
integral say----
    Secretary Brouillette. Absolutely.
    Senator Cortez Masto. ----in how that plays out?
    Secretary Brouillette. Absolutely.
    Senator Cortez Masto. And a commitment from you on that?
    Secretary Brouillette. Yes, absolutely.
    Senator Cortez Masto. Thank you.
    Then let me talk to you about the Nevada National Security 
Site (NNSS). As you know, DOE shipped a half metric ton of 
plutonium to Nevada, to that site, from the Savannah River Site 
in South Carolina. I worked with DOE and have gotten a 
commitment to begin removing the plutonium from the NNSS in 
2021, a complete removal by end of 2026. Will the Department 
still be able to meet its commitment to remove that plutonium 
from the NNSS by 2026?
    Secretary Brouillette. Yes.
    Senator Cortez Masto. Thank you.
    And then, can you talk a little bit about, I understand 
there is a budget request which includes more than a $230 
million increase for the National Nuclear Security 
Administration. What is that money for?
    Secretary Brouillette. That money is to complete work that 
was started some time ago, as you know, and thank you, I should 
thank you publicly for your visit there. The employees 
tremendously enjoyed your visit, and they enjoyed the 
opportunity to talk to you about the important work that's 
being done there.
    That site conducts a number of different research projects, 
many of which are classified, so I must be careful about what I 
say in a public setting, but they are all related to national 
security. They are all related to the important national 
security mission, particularly at the NNSA, the National 
Nuclear Security Administration, which is part of the DOE. We 
want to see that work continue. We think as we begin this 
process of modernizing the nuclear triad, the research and 
development work that's going to be done at that site will 
determine our ability to safely maintain the stockpile for the 
next 30, perhaps 40, years.
    Senator Cortez Masto. Thank you, Mr. Secretary.
    The Chairman. Thank you, Senator.
    Senator Barrasso.
    Senator Barrasso. Thank you, Madam Chairman.
    Mr. Secretary, good to see you again.
    Secretary Brouillette. Good to see you, sir.
    Senator Barrasso. Good to be able to spend time with you at 
the International Security Conference--got back safely.
    Secretary Brouillette. In Munich.
    Senator Barrasso. Then I saw you with the President the 
week after that, I believe in India.
    Secretary Brouillette. So if I say anything really stupid, 
can I blame it on jet lag?
    Senator Barrasso. You may, that is right.
    I can't imagine you doing that, however, saying anything 
stupid because you are very thoughtful on all of these topics.
    I did want to talk to you about in late January the Federal 
Appeals Court severely restricted the eligibility of small 
refineries in the standpoint of hardship relief under the 
Renewable Fuel Standards. If allowed to stand and applied 
nationally, the ruling is going to put dozens of small 
refineries and tens of thousands of jobs at risk. In my home 
State of Wyoming we have five small refineries and employ 
thousands of men and women. New reports have indicated that the 
EPA may decide not to appeal this ruling and instead just apply 
the whole thing nationally. I think it would be disastrous.
    I think about a dozen of us, Senators, called upon 
President Trump to appeal the ruling. Have you explained to the 
White House what it would mean if all these small refineries 
are no longer eligible for this hardship relief?
    Secretary Brouillette. We've had a robust conversation 
within the White House on this particular policy. With regard 
to the Tenth Circuit decision, I can't really give you a 
precise answer. It's not a decision I get to make alone. I'll 
be working with my colleague, Andy Wheeler, over at EPA and 
obviously our friends at the Department of Justice on any final 
decision. But I'd be happy to follow up with you, personally, 
and give you whatever details I might learn from those 
conversations.
    Senator Barrasso. That would be helpful, thank you.
    I want to talk about uranium now. Last July President Trump 
acknowledged that relying on foreign imports of uranium poses a 
security threat to our nation. He established the Nuclear Fuel 
Working Group and wanted to recommend actions to revitalize the 
nuclear fuel supply chain. The report was originally scheduled 
to be released October 12th of last year. Now here we are and 
it is in March. It has not yet been completed, at least we 
haven't seen it.
    Mr. Secretary, America's uranium producers are facing dire 
financial situations, immediate relief is required, making 
funding available now is required to save the uranium mines. 
Uranium miners in my home State of Wyoming were encouraged by 
the President's budget request. It seeks $150 million to create 
a uranium reserve, but that is going to take some time.
    When will the Nuclear Fuel Working Group's report be 
finished and released, the one where the assignment was due 
last October?
    Secretary Brouillette. It is my sincere hope that later 
today you will see the final report. We have been working on 
this, as you pointed out, since last July. This began with a 
232 filing at the U.S. Department of Commerce. At that point in 
time we went through an extensive review of the front end of 
the fuel cycle. Commerce, along with the U.S. Department of 
Energy, the President of the United States, all determined that 
the loss of leadership in the nuclear industry represented a 
national security concern for the United States. He has put 
together this working group. I will assure you that it would 
include not only the very front end of the fuel cycle, meaning 
the mining portion of this, we will find ways to revitalize 
that part of the industry. But it would also include other 
measures that we will take to enhance the mining capabilities, 
as you know, simply pulling the uranium out of the ground 
doesn't do much for purposes of creating nuclear fuel. We have 
to have enrichment, conversion. Other operations need to occur 
in order to make this product useable in the industry. The 
proposal that we will put forth, and I know that we've had some 
preliminary conversations with your staff, will be all 
encompassing and will address the entirety of the fuel cycle, 
the front end of that fuel cycle.
    Senator Barrasso. Are you prepared to provide immediate 
relief for the uranium producers in America.
    Secretary Brouillette. Yes.
    Senator Barrasso. So I would like to now focus, if we 
could, and turn your attention to carbon capture, utilization, 
sequestration. Wyoming sees a real opportunity not only to 
reduce carbon emissions but to put those emissions to good use 
whether it's to enhance oil recovery operations or develop 
coal-related carbon products. Can you explain how the Office of 
Fossil Energy is advancing these capture and utilization 
technologies?
    Secretary Brouillette. Sure, Senator, I will.
    What we have put together within the Office of Fossil 
Energy is an organization or suborganization that's known, or 
it's developed a product known as Coal FIRST. It's a, I think, 
a very innovative program that focuses on coal but the 
technologies that can be used in this area of carbon capture 
and utilization don't apply exclusively to coal, they can also 
be utilized in natural gas as well. But the whole concept and 
the whole purpose of the work there is to develop smaller, more 
efficient and ultimately zero emissions coal facilities. So 
that's what we are working toward. Part of that is utilizing 
carbon capture and utilization, CCUS, but it's a little bit 
more robust and a little bit more comprehensive than just that 
one technology.
    Senator Barrasso. Thank you very much, Mr. Secretary.
    Thank you, Madam Chairman.
    The Chairman. Thank you, Senator Barrasso.
    Senator King.
    Senator King. Thank you, Madam Chair.
    Mr. Secretary, I like you. I voted for you, but I really 
don't like your budget.
    [Laughter.]
    And a wise person once said, budgets are policy. We can 
talk about policy, but budgets really are policy. I look down 
the list under energy efficiency and it is, kind of, a who's 
who of backward policy. I mean, let's see, we want more 
efficient vehicles, so let's cut vehicle technologies by 81 
percent; or bioenergy technologies, let's cut that by 82 
percent. Hydrogen and fuel cells, very promising, minus 72 
percent. It goes on and on. Solar, minus 76 percent. Wind, 
minus 78 percent. Water power, that's only minus 69 percent. 
Geothermal, a tremendous potential, minus 76 percent. You just 
go down and down the list.
    I don't get it. I mean this is, this is the future. This is 
where we're going to try to solve these very daunting energy 
problems, and you are cutting everything. I think the total is 
74.7 percent. Three quarters. What possible justification is 
there for that?
    Secretary Brouillette. Well, I think what you're looking 
at, Senator, and I appreciate your comments. And thank you for 
your kind comments and thank you for your support, not only 
here in the Committee, but on the Senate Floor as well. I 
sincerely appreciate that and, you know, my family also enjoyed 
our conversations about our Acadian heritage. So thank you for 
those as well.
    But with regard to your specific question, I think it's 
important for us to recognize, and sometimes take a step back 
and recognize, that the Department conducts research and 
development complex-wide. So the Office of Science, for 
instance, other laboratories, for instance, all do work----
    Senator King. We haven't even gotten to ARPA-E yet, so be 
careful.
    Secretary Brouillette. I understand. I understand.
    But the complex conducts research enterprise-wide.
    Senator King. Are you telling me that research in vehicle 
technologies, wind energy, advanced manufacturing is being done 
on, is being offset by these numbers? If so, I would like to 
see it.
    Secretary Brouillette. In certain cases, it is. In certain 
cases, it is. So, for instance, with regard----
    Senator King. Well, if you could produce that for the 
record, I would like to see it.
    Secretary Brouillette. Sure, I'd be happy to do that.
    I'll just give you one quick example. So, for instance, 
with regard to advanced manufacturing and vehicle 
manufacturing. Some of that work is being done at Oak Ridge 
National Laboratory in the area of advanced materials.
    Senator King. It is where I just visited. It is very 
impressive what they are doing.
    Secretary Brouillette. It's very impressive, you know, the 
3D printing capabilities there are phenomenal. But it's that 
type of----
    Senator King. You said that on purpose because you know the 
largest 3D printer in the world is at the University of Maine.
    Secretary Brouillette. Is in Maine.
    [Laughter.]
    Exactly right.
    Senator King. Nice try.
    Secretary Brouillette. You can read my mind.
    So when you look at the specific line items, you know, if 
you go through it as an accountant, you can very easily see the 
cuts, but I think what's important is to look at the results of 
the work that's being done at DOE and that's crosscutting.
    Senator King. Well.
    Secretary Brouillette. It goes all across the complex.
    Senator King. If you are suggesting that they are 
offsetting increases in other areas that will mitigate this 
disaster, I would like to see that.
    But let me move to ARPA-E because I looked at ARPA-E, and 
you did something that I didn't think was possible. You cut 
something 173 percent. Now the reason that is possible is that 
you didn't spend a significant part of the funds that were 
allocated by the Congress last year. Now, you and other members 
of the Administration have sat here and said, we will do what 
the Congress told us to do. We will follow the law. In fact, 
you used that exact phrase. We will follow the law.
    Well, not spending a substantial portion of the funds that 
Congress allocates and then trying to claw them back the next 
year, is not following the law. Congress appropriated that 
money in order to put it toward important scientific projects 
and the figure is in the range of a hundred and some odd 
million dollars. It is minus $310 million that you are clawing 
back. And again, this fundamental research is one of our most 
basic bulwarks against the energy catastrophe that is heading 
for us. What is the thinking?
    Secretary Brouillette. It's a fair point. The, you know, 
there were some carryover funds from that particular program, 
but I would offer that, you know, it's a bit of a chicken and 
egg. You're absolutely correct that we have an obligation to 
follow the law. We have an obligation to get the money out of 
the door as quickly as possible in accordance with the 
appropriations that you generously provide us.
    It also requires applicants on the other side, however, 
that we have an obligation to conduct due diligence on. So, 
it's not just a question of, you know, getting the money and 
moving it out the door, it's getting applicants on the other 
side that are fully qualified to receive the money. So it's a 
process.
    Senator King. Certainly, I understand that. And I'm not 
asking you to air drop money over Maine or Colorado or anyplace 
else but there is, I mean, the problem is for the past several 
years I've sat and been satisfied by the representation saying, 
we will follow the law, when a half or two-thirds of the money 
that's been allocated and it's invasion of the Congress' power 
of the purse. We have the ultimate authority on appropriations 
and the responsibility. I think the phrase is, ``Take care that 
the laws be faithfully executed.'' And I don't think it's being 
faithfully executed when a substantial portion is held back and 
then is attempted to be clawed back in the following year's 
budget.
    But I am sure you're going to help me out here and provide 
the data that we have discussed, and I look forward to working 
with you.
    Secretary Brouillette. Yes, sir, I will. I will make myself 
available to you or your staff and I will provide any detail 
that would support the comments I just made. And I will also, 
again, reiterate the point that, you know, this is a proposal 
that is the President's budget, but as you rightfully point 
out, you will, at the end of the day, determine the final 
budget as well as the final appropriations that are associated 
with these programs and you have my commitment----
    Senator King. And that's the right answer, but you have to 
commit to administering that budget according to the way it is 
passed here. You understand my concern.
    Secretary Brouillette. I understand your concern.
    Senator King. Thank you.
    Thank you, Madam Chair.
    The Chairman. Thank you, Senator King.
    And Secretary, I think following Senator Manchin's comments 
and the observations that he had made about the GAO report, I 
think that that is something that the Committee would 
appreciate a more detailed review from the Department. So we 
will look forward to that.
    Secretary Brouillette. Yes, ma'am.
    The Chairman. Thank you.
    Senator Heinrich.
    Senator Heinrich. Secretary, how much input did you have in 
crafting this budget?
    Secretary Brouillette. Sorry, sir?
    Senator Heinrich. How much input did you have in crafting 
this budget?
    Secretary Brouillette. A fair amount, I mean, I'm not quite 
sure of the premise of your question. It is a robust process 
that occurs between the agencies and OMB.
    Senator Heinrich. Well, because I think what you have heard 
on this Committee is those of us who know you and know your 
level of professionalism and your commitment to R&D and other 
programs are trying to reconcile a budget that, frankly, sucks, 
with the way that you present yourself in front of this 
Committee. And it is very difficult to do. And you point to the 
results that the Department of Energy has produced and none of 
us will question those results. I would point out the fact that 
I think those results are directly the result of this Committee 
and Congress working to restore what have been proposed cuts, 
year after year, from this Administration.
    I entirely agree with my colleagues on issues like ARPA-E 
and the incredible laundry list that Senator King went through, 
but it is a little closer to home, in particular, in Los Alamos 
for me, when, you know, Senator King said, ``Budgets are 
policy.'' And that is very much true. But budgets are also 
about values and priorities. And this budget proposes nearly, 
almost, a 50 percent cut in environmental cleanup at Los 
Alamos. I can't understand why this Administration does not 
value cleanup and would risk breaking the legal commitments 
that the Department of Energy has made to the State of New 
Mexico with budget numbers like that. Why is the cleanup number 
so abysmal in this budget?
    Secretary Brouillette. So let me take a step back and 
address the process. We do have a very robust process, as I'm 
sure you're very aware. With regard to some of the programs 
that you mentioned, programs like ARPA-E and the loan office 
and what not, I engaged very early on and recommended 
alternative numbers, but as you know, this is a negotiated 
effort. So I won some and I lost some is the bottom line.
    And the few that I lost, I think, you know, create some 
concern for this Committee. I can only suggest to you what I 
said earlier. If the Committee has a different view about ARPA-
E, if the Committee, if the Congress has a different view about 
the Loan Program Office, I will ultimately follow the direction 
of the Congress because it is you that has the ultimate 
authority on these programs.
    But I give you my assurance that I didn't take a back seat 
in the conversation, you know, with OMB and others, but as you 
do here in this Committee, as you do with your colleagues on 
the Senate Floor, you engage in debate. Some you win. Some you 
lose.
    Senator Heinrich. Secretary, do you think you could meet 
your commitments under the consent order to the State of New 
Mexico with the budget numbers that we see for cleanup at Los 
Alamos?
    Secretary Brouillette. I do. I do.
    Senator Heinrich. How?
    Secretary Brouillette. Because there, some of the cuts that 
you're referring to involve carryover funds or unexpended funds 
that were from years past. So those monies are not needed, you 
know, for us in 2021 at this point in time. Thanks to the work 
of the Congress, thanks to the U.S. Senate and the U.S. House, 
we have a full year appropriations all the way through the end 
of 2020. So, none of the milestones, to my knowledge, to the 
best of my knowledge, are going to be impacted.
    Senator Heinrich. I am not sure that inspires confidence in 
me, and I am not sure it inspires confidence in the Governor of 
the State of New Mexico, although I don't want to speak for 
her. But given the limited time here, I would like to shift 
real quickly to something that we took up with respect to the 
Defense Nuclear Facilities Safety Board (DNFSB). I think all of 
us can agree that nothing is more important at our national 
labs than assuring the safety of the people who work there and 
the public surrounding them. That is why you saw myself and 
others worked on legislation in the past year that reversed the 
effects of DOE's new Order 140.1 that limited the Board's 
access to people, information and facilities. Can you update us 
on the current status of that order? Has it been suspended and 
is it being rewritten?
    Secretary Brouillette. It's being revised. So I appreciate 
your interest in the matter. I would just take a few seconds to 
back up and to lay the predicate for what was the purpose of 
140. It was simply to clearly define the roles of the DNFSB 
versus the Department of Energy, who is the regulator for these 
matters, these nuclear matters. The DNFSB, in our opinion, I 
think, in accordance with the statute, is an advisory board. We 
simply sought to clarify that relationship. At no point did we 
seek to deny DNFSB access to a DOE facility or access to the 
materials that they need to properly advise us.
    That being said, however, I recognize the language in the 
NDAA. I recognize the concerns that were raised as a result of 
the order. We have begun the process of revising the order. I 
will be meeting with the DNFSB later this month, and we hope to 
have it completely resolved.
    Senator Heinrich. I am glad to hear that you will be 
meeting directly with them.
    The Chairman. Thank you, Senator.
    Senator Cantwell.
    Senator Cantwell. Thank you, Madam Chair, thanks for the 
hearing. It is great to see you, Secretary Brouillette. I 
obviously, would like to talk about a variety of things, but 
you know I need to get to Hanford.
    But I will mention, you know, obviously, I am very 
concerned about cybersecurity and want to note that we have now 
seen, Madam Chair, the first successful attack on our power 
system that actually interrupted the electric system 
controlling 500 megawatts of power in generating sites in 
California, Utah and Wyoming for over 12 hours. We have had 
many attacks where people have infiltrated our power systems 
and well, let's just say, snooped around, but in this case, 
they actually interrupted power. And so, we take these attacks 
very seriously. You can respond for the record, but we have the 
energy bill that is on the Floor that has provisions to upgrade 
resources for DOE. I would like to know what, additionally, you 
think we need to do to increase the CESER Office, but we want 
to give you more resources on the Grid Storage Launch Pad, grid 
strategy for storage and integration, very happy for the 
support of PNNL on this point.
    Like the Chair mentioned, the ARPA-E budget we are a little 
mystified about given the importance of all of that. But let me 
turn to Hanford. The President's budget request is over $1.5 
billion below what Department of Energy officials have said 
that they want and need. I have two letters here from managers 
from the Hanford site that basically are saying this is what we 
need to meet the Tri-Party Agreement.
    [The two DOE letters referenced follow.]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Cantwell. We take those DOE letters seriously 
because they are the ones negotiating with the state to meet 
those agreements. So if the budget is just over half of what 
they say is needed for compliance, what is DOE saying about the 
need to comply with the Tri-Party Agreement to make sure the 
resources are there for Hanford cleanup and for Hanford 
workers?
    Secretary Brouillette. Well, Senator, if it would be 
possible to get a copy of those letters, I'd appreciate that. 
I'm not sure that I've seen those, but I would be happy to 
review them and come back to your office and explain anything 
that you may want to know more about then.
    I will assure you that within the part of the EM budget 
that we have proposed to the Congress, Hanford receives the 
largest amount of funding from that EM budget. It is roughly 
one-third of the entire EM budget.
    Senator Cantwell. Yes.
    Secretary Brouillette. And as I mentioned to you throughout 
my confirmation process, it remains my highest priority. What 
you are seeing, I think in this case, is perhaps the 
elimination of some unobligated balances or uncosted balances 
that were in the program. So with regard to the program that we 
have for Hanford in 2020, we're going to continue the good 
progress that we've already made. For instance, we will 
complete the completion of DFLAW this year. The hot start for 
that in 2023 is unaffected by this budget request.
    We have eliminated and deferred in certain cases lesser 
priority projects within the EM program in order to maintain 
the aggressive schedule that we set for Hanford. You know, the 
things that we have put aside, however, are somewhat low risk 
relative to the other risks at Hanford. So that's what you see 
in the budget. Yes, there are cuts, but the priorities that we 
have established in places like Hanford still remain.
    Senator Cantwell. Secretary Brouillette, you believe in 
upholding the Tri-Party Agreement and meeting those milestones, 
correct?
    Secretary Brouillette. I do.
    Senator Cantwell. Okay, so I think that is where the 
confusion is, and these are your local managers saying this is 
what they need. So, yes, please----
    Secretary Brouillette. Sure.
    Senator Cantwell. ----review that. This has been one of 
Hanford's biggest problems all along is that people look at 
that number and they go, oh, my gosh, it is so big. What can I 
do to reduce it? When in reality we should be asking the 
question, what does it take to clean up the largest nuclear 
waste site on the entire globe? What does it take?
    And as we can see, it takes a lot because it is very 
complex and the responsibility of the United States to get that 
done is the key responsibility represented in that Tri-Party 
Agreement. So we can't just look at it and go, oh my gosh, it 
is so big. That is what every energy secretary does. They come 
in. They look at that number, I am sure enticed by some OMB 
person, who says, oh, my gosh, here is where we can find half a 
billion dollars. Let's lop that off. We do appreciate the 
progress that we are making but we don't want to let up now. 
Please review these, and I appreciate you being here.
    Secretary Brouillette. I will. I will, Senator. And neither 
do we. We don't want to let up and that's why, at the request 
of the Department of Ecology in Washington, we have begun a 
holistic review of the work at Hanford. We're going to look at 
everything from size and scope, and we'll want to have a honest 
conversation about what does it take to make meaningful 
progress there. I think, you know, without casting aspersions 
on previous, you know, administration officials, I don't know 
that we've had a complete and thorough assessment of the work 
that needs to be done there and that's one of my goals is to 
sit down and really put a pencil to this and really put the 
brightest minds to it so that we can begin the process of 
meaningful cleanup.
    And it's not to suggest that cleanup hasn't already 
occurred. It certainly has. But we want to make sure that we 
can continue this work for the next 20 to 30 years.
    Senator Cantwell. Thank you, Mr. Secretary. I just don't 
want the budget to be the target. I want the cleanup to be the 
target.
    Secretary Brouillette. Fair point.
    Senator Cantwell. Thank you very much, Madam Chair.
    Secretary Brouillette. Fair point.
    The Chairman. Thank you, Senator Cantwell.
    Senator Daines.
    Senator Daines. Thanks, Chair Murkowski.
    Secretary Brouillette, welcome. It is great to have you 
here today. I hope that we can have you out to Montana soon. 
Snow is starting to melt and then you can see firsthand our 
balanced energy portfolio we have in Montana and the issues we 
were discussing today like the Colstrip Power Plant. Montana is 
a great example, truly, of all-the-above energy portfolios. We 
are grateful for that in Big Sky Country.
    Mr. Secretary, your budget seeks to reorganize how the 
Department does research for carbon capture, utilization and 
storage, better known as CCUS, and you fund it at approximately 
$100 million less than the last fiscal year. As you know, CCUS 
research and development is critical if the U.S. plans on 
leading the commercialization and use of this technology which 
will lead to lower carbon emissions and maintain important 
baseload power from coal- and gas-powered plants. Fortunately, 
the Senate is taking major steps to prioritize CCUS research in 
the energy bill that is on the Floor this week which I thank 
the Chairman for her leadership there as well as the Ranking 
Member.
    Fortunately, one of the bills included is this EFFECT Act 
which the Chairman, Ranking Member and myself introduced. This 
bill requires that DOE focus on getting CCUS technology out to 
the market, including through demonstration projects and a 
large-scale pilot plant. We think that Montana is a perfect 
place for this kind of project. Unfortunately, Montana 
communities have suffered through numerous coal plant closures, 
including the recent closure of Colstrip Units 1 and 2. 
Bringing a large-scale CCUS project to these communities would 
help keep and grow jobs and revitalize these rural towns.
    Mr. Secretary, how could Montana partner with DOE to set up 
a large-scale CCUS project like the one that will be created in 
our EFFECT Act?
    Secretary Brouillette. Thank you, Senator, for your 
comments. I'm very aware of Colstrip and its importance, not 
only to Montana but to our national grid as well. As you and I 
talked about in the past, we've begun the process within DOE to 
look at defense critical infrastructure and I assure you that I 
will be reviewing Colstrip's role in your part of the woods, if 
you will, your part of the country and its importance to our 
national security and how it interacts with the rest of the 
grid.
    With regard to CCUS, we had an earlier conversation with 
other Senators about some of the work that's being done by the 
IRS as well as the Department of Treasury. I have mentioned to 
my colleagues many times on the need to clarify those roles. We 
have to finalize them. We appreciate the guidance that came out 
just a few short weeks ago from the IRS. We think there are 
additional steps that need to be completed. We're going to 
continue to work with our Treasury colleagues and provide them 
the technical advice that they have asked for to finalize that 
important role. It's critical for us to send a clear signal to 
the industry, you know, that the rules are certain and final so 
that they can make the investments that they need to make to 
have this technology come forward.
    With regard to the pilot project at Colstrip, I would 
welcome an opportunity to talk to them directly and to engage 
them in some of the studies that we're doing at the DOE, 
especially with regard to some of our pre-FEED studies. And I 
would like to invite them to come into the Department or meet 
with me and the team so that we might figure out as to whether 
or not Colstrip meets the conditions for a pilot project going 
forward.
    Senator Daines. Secretary Brouillette, I like that idea and 
we ought to work to get some of those folks here, face-to-face, 
and perhaps we will do something similar, and bring you out to 
Montana.
    Secretary Brouillette. Yeah.
    Senator Daines. The community would very much like to have 
you see, first of all, it is an amazing community, and to see 
how we believe looking at it purely on the criteria of where is 
the best place to locate something like that, why it would, I 
think, meet that criteria and seeing it firsthand, kicking the 
tires, touring the plant----
    Secretary Brouillette. I would love to do that.
    Senator Daines. ----would be very helpful. We will work 
with you on that, and I appreciate your support for the 
consideration of that and hope we make that happen.
    Secretary Brouillette. Yeah, I would be happy to go, and 
I'd bring a team with me so that we can more closely evaluate 
the entirety of the site.
    Senator Daines. Thanks, Mr. Secretary.
    The Chairman. Thank you, Senator.
    Senator Wyden.
    Senator Wyden. Thank you, Madam Chair.
    Mr. Secretary, I want to stay with the Hanford issue. In 
May of 2017 an underground tunnel used to store radioactive 
waste at Hanford unexpectedly collapsed and the Department of 
Energy had to spend millions of dollars not to clean up the 
tunnel but to fill it with cement to stabilize the site. My 
colleague, Senator Cantwell, and I wrote the Government 
Accountability Office on this. They were very critical of the 
Department's failure to adequately assess and monitor the risk 
to workers and the public from these kinds of aging waste 
sites, some with very large amounts of plutonium and other 
radioactive materials.
    Now let me put this in, kind of, a little bit of 
historical, you know, context because this is our lifeblood. 
The Columbia River is right next to the lifeblood of Oregon and 
Washington. The Department of Energy has left the cleaning up 
of Hanford, arguably the oldest and worst environmental 
problems in the Department's complex, for last--. I want you to 
tell us how you are going to make this a priority when you are 
cutting the budget 40 percent. When I think of priorities, I 
think about budgets that say, hey, we are going to move this up 
to the top of the list. You have a budget that takes it down 
and down and down some more and you are doing it right in the 
face of a Government Accountability Office report. So reconcile 
for me how this is a big priority for you when the budget has 
plummeted.
    Secretary Brouillette. Thank you, Senator, I appreciate 
that opportunity.
    The health and safety of the workers at Hanford are our 
highest priority. I'm familiar with the GAO report. They've 
given us a series of recommendations, many of which we've 
already begun to implement. They focus on, what they gave us 
specifically, was a brand-new risk evaluation process which we 
used to evaluate some of the aging facilities like the PUREX 
Tunnels both 1 and 2. Our process internally is already--we 
were already engaged in that. We're using the process to 
identify those facilities that need newer technologies, for 
instance, to allow us to assess them more clearly. We've 
developed robotic technologies that allow us to go into the 
tunnels without the use of, or exposing workers, I should say, 
to the dangers that exist there.
    With regard to the overall budget in EM, as I just 
mentioned to Senator Cantwell, Hanford remains our highest 
priority within the EM program. It is the largest program 
within EM and it constitutes roughly one-third of the entire EM 
budget. The work that we have done there, the successes that we 
have accomplished there in 2019 will continue. For instance----
    Senator Wyden. My time is short, Mr. Secretary, and I am 
going to give you the last word on the subject, but let me just 
be clear on this. We have some of the worst problems at Hanford 
and some of the oldest ones and you are producing a budget that 
is going to take it even longer to deal with them. And so, I 
would just like, as part of your response here, for you to tell 
us which of the problems you are going to kick down the road 
even further now that you have a budget that proposes cutting 
such a substantial amount of money.
    I would like that, in fact, let's do it two ways. I want to 
hear your response and I would like, in writing, within let's 
say ten days, a written response on which problems at Hanford 
are going to be kicked down the road as a result of the fact 
that the budget is being reduced by such a substantial amount.
    Secretary Brouillette. Sure. I'd be happy to respond to the 
specific projects at Hanford, if you will, that we've deferred. 
We have picked some very low-risk projects there in order to 
prioritize the work around DFLAW. As I mentioned to Senator 
Cantwell, we are committed to completing the construction of 
DFLAW this year. We have already staged the waste product that 
will go into that facility. We will begin hot start in 2023.
    So some of the lower risk, you know, projects we have 
deferred for perhaps one year, I will provide that list to you 
in writing so that you can understand what they are. We've also 
deferred some projects in places around the complex as well to, 
again, fund the highest priority at Hanford. And what we saw 
that, we saw some of this work completed in 2019, it was, you 
know, addressing the issues around the K-Basin, those areas 
closest to the Columbia River, ensuring that that sludge is 
removed and safely stored was one of our highest priorities. We 
did that in 2019. We'll continue that work in 2020.
    Senator Wyden. My time is up, Madam Chair, but I just want 
to say, Mr. Secretary, I wish I had a nickel for every time a 
Secretary has said we are dealing with the high priority, 
safety and public health questions and well, we are going to 
have to defer some of the less important ones. Yet we still 
have essentially no cleanup, year after year after year.
    I will look forward to getting a written response on what 
you all are deferring, and I thank you, Madam Chair.
    Secretary Brouillette. Yes, sir.
    The Chairman. Thank you, Senator Wyden.
    Senator Gardner.
    Senator Gardner. Thank you, Madam Chair. Thank you, Mr. 
Secretary, for being here today.
    You will recall when we talked in my office that we 
discussed the infrastructure challenges at the National 
Renewable Energy Laboratory, NREL, in Golden, Colorado. As you 
know, this lab is an incredibly high priority for me and my 
great state. During my time in the Senate, funding for the lab 
has grown by nearly 50 percent, and I am grateful for the 
support from my colleagues for this incredible, incredible lab. 
While it is exciting to see the growth of NREL's research and 
the work they are doing, with that challenge, of course, and 
the expansion of their work and the successful partnerships in 
the private sector they have created, comes a challenge of 
adequate lab and office spaces. And so I was grateful to see 
the appropriators this Congress provide additional support and 
funding to NREL's facilities account in the FY20 Energy and 
Water Development Appropriations bill. This will certainly help 
with badly needed lab space and support the transformation of 
the National Wind Technology Center from a single program site 
for wind to a multiple program campus called Flatirons that 
also includes solar and batteries and the accompanying 
research.
    The FY21 budget fails to build on this success. I think you 
will agree with me on how important it is to invest in 
equipment and facilities that support innovation, helps attract 
and retain talent and enables partnerships that transition the 
national lab's research to commercial products. I can see that 
impact on the ground each and every day in Colorado. I hope you 
will work with me and Congress as we look forward to support 
level funding for the next fiscal year.
    Secretary Brouillette. I will indeed, Senator. I'm very 
familiar and thank you for the time that you spent with me to 
articulate not only the history and the context behind some of 
the efforts that you've put forth at NREL, but talking about 
the future and what it looks like. And I think it's very, very 
important that we continue the expansion.
    I've met with Martin Keller, the Lab Director there, 
numerous times and he's explained to me the constraints that 
are being placed on the lab through the, you know, the limited 
office space, the limited laboratory space that he has 
available to him. I am committed to that. I'm committed to 
working with some of the private sector partners as well who 
have expressed interest in helping us develop some of the 
resources outside of the lab complex in certain cases. National 
companies like Wells Fargo and others have expressed interest 
in joining the lab in that effort. So I look forward to working 
with them. I give you my assurance we'll continue this project 
and continue this process.
    Senator Gardner. Thank you very much, Mr. Secretary.
    Secretary Brouillette. Thank you.
    Senator Gardner. This Committee has passed several bills 
relating to grid modernization and grid security that are part 
of the American Energy Innovation Act we are considering on the 
floor this week. Underpinning all of this, of course, is 
cybersecurity. I note that the new Office of Cybersecurity, 
Energy Security, and Emergency Response, or CESER, is 
addressing the challenge of securing today's energy 
infrastructure from cyberattacks and thank you for that work. 
But I am interested in whether or not there is a requirement in 
DOE's Applied Energy programs to ensure adequate resources and 
attention are given to incorporating cybersecurity early in the 
design of emerging energy technologies rather than bolting 
security on after the deployment onto the grid. Is there a 
process enabling CESER to assist these programs and within the 
other applied energy programs as research matures to the point 
of commercialization, how is the importance of grid security 
communicated to industry and are they the questions that really 
are inward facing to DOE or outward facing to industry? How do 
we address those issues?
    Secretary Brouillette. We do have a very robust program 
within CESER to share the technologies and share some of the 
applied research within DOE with the industry itself. We do 
that in a number of different ways. One is just direct 
interaction with the Office of CESER, with utility executives, 
with other industry executives. The other way we do this is 
through a very formal process with the Electric Sector 
Coordinating Council. That's where we sit down and we talk 
about events that are happening, in real time, on the grid and 
address what responses we're going to use to attack them.
    We have the CRISP program which is, you know, an acronym 
that I can't remember right at the moment because we have an 
acronym for everything in government service, but these are 
programs where we interact directly with the industry and share 
both experiences and new technologies coming online. And it's a 
two-way conversation.
    The other thing that we have worked closely on are some of 
the newer technologies coming to market. And I'll just share 
real quickly something that we are very excited about that 
relates to cybersecurity, if not directly then tangentially, 
and that is the creation of a quantum entangled internet which 
we have now put about 52 miles of service in the Chicago area. 
University of Chicago, Argonne, Fermilab are utilizing this 
technology now. It's a closed circuit, quantum internet which, 
in many respects, obviates the need for cybersecurity, 
encryption, things like that. So it's a new technology that we 
hope at one point, if we can get support from Congress, to 
apply to all of our national laboratories and eventually move 
out into the public domain with our utilities as well.
    Senator Gardner. Thank you, Mr. Secretary.
    Thank you, Chairman.
    The Chairman. Thank you, Senator Gardner.
    Senator Hirono.
    Senator Hirono. Thank you, Madam Chair.
    I would like to start by expressing my support for the 
Department of Energy's efforts to accelerate the development of 
energy storage. However, improving energy storage technologies 
is only one component to shifting to 100 percent renewable 
power like Hawaii is doing and this is why I introduced the 
Next Generation Electric Systems Act. The demonstration grants 
in the Act would bring together the DOE and private expertise 
to spur innovation in the ability of the grid to provide 
families and businesses with affordable power from clean 
sources while benefiting from energy storage, local microgrids 
and electric vehicles. I want to thank the Chair, the Ranking 
Member and Senator Cantwell for including the Grid Technology 
Demonstration grants in the American Energy Innovation Act that 
we are considering on the Floor even as we speak.
    Last week you testified to the House Appropriations 
Subcommittee on Energy and Water Development that, ``We need to 
get to grid-scale battery storage. That allows people to move 
even further, perhaps even to one day where we achieve the goal 
of 100 percent renewables.''
    You have acknowledged the vision of Hawaii and nine other 
states, District of Columbia, Puerto Rico, all of which have 
set 100 percent renewable and clean energy targets for their 
jurisdictions. How do you square the vision you shared last 
week with which I agree, and the scale of the challenge of 
confronting climate change with a budget that cuts renewable 
energy funding by 74 percent, cuts basic science funding by 17 
percent and increases electricity funding by only two percent?
    Secretary Brouillette. Senator, thank you for the question. 
You know, what we have done in the budget is focus our 
investments into some very important areas and one of them you 
mentioned, the grid-scale storage initiative that we have at 
our Western lab, the Pacific Northwest National Laboratory, 
PNNL, in Washington State. We announced there the effort to 
build a new laboratory, or a new facility I should say, to 
develop grid-scale battery storage. And why is that important? 
It's important, not only for the purposes of integrating 
renewable energy onto the grid, which is something I know that 
you care deeply about and Hawaii has been a leader on. It's 
also important for grid resiliency itself. If we have grid-
scale battery storage, for instance, for a nuclear facility or 
coal facility----
    Senator Hirono. Excuse me. Of course, I am with you on the 
need for battery storage research, but it is just one part of 
getting to a renewable energy future. So, you know, this may be 
more a statement or a comment, but as some of my colleagues 
have already said, your budget, the budget reflects values and 
I do not believe that this budget reflects the value of 
supporting alternative and renewable energy.
    Let me move on.
    Each year the Trump Administration has proposed canceling 
the Advanced Research Projects Agency-Energy, ARPA-E. And so 
far, Congress has wisely rejected the idea each year. Congress 
established ARPA-E to take a chance on highly innovative energy 
technologies that could benefit the public in the long-term. 
For example, ARPA-E is supporting research in Hawaii on 
harvesting seaweed as a potential local renewable energy 
source.
    The ARPA-E model of high risk, high reward projects may not 
translate as easily to small businesses that are taking more 
proven technologies from the national labs and scaling them up. 
So the Small Business Innovation Research, SBIR, and Small 
Business Technology Transfer, STTR, programs are more focused 
on transferring good ideas to the market than on proving the 
ideas to begin with. So your budget proposes cutting ARPA-E but 
your budget proposes applying ARPA-E practices to the SBIR and 
STTR programs. How do you plan to avoid applying the wrong 
tools to small businesses seeking to scale up technologies?
    Secretary Brouillette. That's a good question. The 
conversation around ARPA-E that we had earlier, I think, is 
applicable here as well. You know, we have proposed, the 
President's budget has proposed scaling back and reducing and 
eliminating in the case of ARPA-E. Some of these projects that 
we feel, perhaps, are better administered, if you will, by the 
private sector. I recognize your point about the fact that 
there are small businesses who simply don't have the funding to 
go past the Valley of Death and that's a very important, you 
know, role that, you know, programs like ARPA-E can eventually 
cover for them.
    But at least in the case of this budget, we feel very 
strongly that ARPA-E has perhaps outlived its purpose at the 
Department of Energy. That being said, you know, as I mentioned 
to the Chairwoman and other members of the Committee, this is a 
proposal from the President. It is a beginning of a 
conversation with the Congress on what the ultimate budget 
numbers should be. And if the Congress or if this Committee 
decides that it should be something different, you have my 
assurance that we will execute the program to your direction in 
the U.S. law.
    Senator Hirono. Yes, I don't understand how a program, 
ARPA-E, that really promotes highly innovative energy 
technologies, how that can have outlived its usefulness.
    Thank you, Madam Chair.
    The Chairman. Thank you, Senator Hirono.
    I promised you that you would hear from just about every 
member----
    Secretary Brouillette. I did.
    The Chairman. On the significance and the value that we 
ascribe to ARPA-E. I would share the final comment from Senator 
Hirono there when we are talking about technologies. We are 
never done. We are never done. And those men and woman that are 
helping to facilitate some of these great exciting ideas and 
how we move through this so-called Valley of Death to real, on-
the-ground application, is forever the challenge.
    I have two more quick questions here for you this afternoon 
because we are getting into the afternoon already.
    This year's funding for the Office of Nuclear Energy 
included $230 million to begin an Advanced Nuclear 
Demonstration Program similar to what we had authorized in my 
NELA Act, the Nuclear Energy Leadership Act. The appropriations 
bill directed DOE to request a, to issue a request for 
proposals within 30 days of enactment but a full RFP isn't 
expected to be released any time soon. Can you just give me a 
sense as to what we can expect when it comes to the funding 
opportunity to utilize the Advanced Reactor Demonstration funds 
for this Fiscal Year and, kind of, what the strategy is here 
when we are talking about advanced reactor demonstrations?
    Secretary Brouillette. Well, Senator, thank you for the 
question. We are committed to advanced reactors, as I mentioned 
earlier, one of the earlier answers to the questions. You're 
familiar with the HALEU project----
    The Chairman. Right.
    Secretary Brouillette. ----that we currently have ongoing. 
In addition to that, we are working closely with companies like 
NuScale which are slightly larger reactors in the 50-megawatt 
range. We're working closely with them and, importantly, our 
Idaho National Laboratory. We have a demonstration project 
there that we are going to begin. We're excited about their 
progress in the regulatory process, if you will. They've now 
completed phase four of that regulatory process. We are 
encouraging them to continue. We're working with companies like 
Oklo as well at the Idaho National Laboratory.
    We think it's important for us at DOE to continue to 
catalyze this industry through the development of advanced 
fuels, and that's been our focus for the last few years and 
will continue to be our focus all throughout 2020 and 2021 as 
well.
    The Chairman. Yes, we certainly recognize the value and the 
imperative there.
    I mentioned in my opening statement the critical minerals 
initiative that you are working through the Department. You 
really didn't flesh out many of the details in your statement, 
so I would like to give you the opportunity to tell us a little 
bit more about what this initiative is and, effectively, what 
you hope to accomplish this year and then, I guess, to make 
sure that you feel that you have the tools needed to fulfill 
the President's Executive Order on mineral security.
    Secretary Brouillette. So I'm looking at the, I'm looking 
at a few things we're doing here. And I want to first start off 
by just saying we appreciate the language that you've put in 
your bill.
    The Chairman. Thank you.
    Secretary Brouillette. And we look forward to working with 
you on that and to the extent that we can be of any further 
assistance, we want to do this.
    Critical minerals, as we have talked about in the past as 
well, is important, you know, not only for the production of 
new battery technologies, it's important from a national 
security standpoint as well. For too long, at least in our 
view, for too long we've depended upon countries that are, 
quite frankly, adversaries. They do not have our interest at 
heart. I'm speaking primarily to China. Through their One Belt 
One Road efforts they've dominated the market, if you will, in 
critical minerals and critical elements, rare earth elements, I 
should say.
    Our goal with this program is to develop new sources of 
critical minerals. So we're looking at things, as I mentioned 
to Senator Manchin, we're looking at things like coal, coal 
ash, the acid runoff that comes from a coal mine. We seek to 
develop technologies that will allow us to extract many of the 
minerals we need for battery production from the residue that's 
left over from the coal mining process or, in certain cases, 
from the coal itself. So we think, in that case, it is a future 
use of coal. We want to continue to see that technology 
advance.
    We will be working with you on not only the language in 
your bill but other appropriations, perhaps at some point, to 
continue that type of R&D work. This is one of our focal points 
within not only the Office of Fossil Energy but within our 
Office of Science as well.
    The Chairman. When we think about security issues, energy 
security issues, you cannot separate yourself from the growing 
vulnerability that we face when it comes to our reliance on 
others for these minerals that are so essential to just about 
everything that we do. So this is an effort that we are going 
to continue to stay focused on. I appreciate your willingness 
to work with us on that.
    I think we have had some good discussion here this morning 
before the Committee members expressing their priorities which 
this is what we do. You come and you represent the President's 
request and we affirm to you where we think those priorities 
may be lacking, and I think you have heard us clearly this 
morning. We think the focus on R&D and the technologies that 
can come from ARPA-E, the Office of Renewable Energy, I think 
these are, these must be priorities moving forward.
    I think you have heard that the effort to help many of the 
most vulnerable when it comes to things like weatherization 
programs, again, have to be priorities moving forward. Our 
responsibility, environmentally, on the cleanup issues, I 
recognize Senator Cantwell's relentless push on this as it 
relates to Hanford and Senator Wyden as well. These are matters 
that we all, it is not in my state, but it is a problem for all 
of us throughout the country. How we address these in a 
meaningful way through policies, but through budgets, must be 
an ongoing priority.
    Developments in CCUS, in storage, what we must do with 
cyber. You heard all of this. You heard my push, again, on the 
Arctic and what we can be doing in the space of nuclear, my 
focus on advanced nuclear, the waste issue that is raised by 
the Senator from Nevada. These are all, all priorities for the 
Committee. Many more that you will hear as you get additional 
questions.
    The Chairman. Know that we need to be working with you at 
the Department. We are at a point, I believe, in our nation's 
energy policies where we are looking at some of the things that 
could go forward that are perhaps not moving forward or not 
moving forward quickly enough because our policies have not 
been refreshed and that is what this American Energy Innovation 
Act is designed to do. But as I mentioned in my comments, your 
role at the Department in helping to implement so much of this 
is going to be key going forward.
    So hopefully we will have your support as we move forward. 
These are initiatives that are good for everybody. They are 
bipartisan in every sense of the word. If you don't want your 
energy to be affordable, accessible, clean, diverse and secure, 
if we can't agree on that, it is going to be a pretty tough day 
around here.
    I appreciate your leadership as we work through many of 
these issues. Know that the Congress, I know that this Senate 
will speak very clearly as to where we believe those energy 
priorities should be.
    Thank you for what you do. Thank you to your team, because 
we know they allow you to look pretty good up there, but I know 
I will extend yet another opportunity to visit not only my 
State of Alaska but others have invited you as well. We look 
forward to seeing you out and about as you are becoming even 
more personally familiar with these matters that we all 
represent.
    With that, we thank you, Mr. Secretary, and we appreciate 
your time and your leadership.
    Secretary Brouillette. Thank you, Senator. Take care.
    The Chairman. The Committee stands adjourned.
    [Whereupon, at 11:24 a.m. the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------                              

[[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
